PROOF OF SERVICE
I Audie Reynolds, decla

re on this date as required by

Supreme Court Rul

e 29 I have served the enclosed
PETITION FOR A WRIT OF CERTIORARI
on each
party to the above proceeding or that party
’s counsel,
and on every other person required to be
served, by
depositing an envelope containing the
above
documents in the United States
mail properly
addressed to each of them
and with first-class
postage prepaid, or by delivery to
a third-party
commercial carrier for delivery within
3 calendar
days. The names and addresses of those
served are
as follows:
Counsel: Eric L. Cook (#020797)
ecook@zbslaw. com
Joseph J. Tirelo (#033371)
jtirelo@zbslaw. com
___
ZIEVE, BRODNAX & STEELE, LLP
3550 North Central Avenue, Suite 625 Phoenix
Arizona, 85012 (602) 282-6188
Attorneys for Plaintiff
L
Audie Reynolds

34

